HHS/OIG, Audit -"Review of Medicare Contractors Pension Segmentation Requirements
at Blue Cross Blue Shield of Utah for the Period Covering January 1, 1986, to January 1, 1998,"(A-07-05-00190)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractors Pension Segmentation Requirements
at Blue Cross Blue Shield of Utah for the Period Covering January 1, 1986, to January 1,
1998," (A-07-05-00190)
April 28, 2006
Complete
Text of Report is available in PDF format (498 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine if Blue Cross Blue Shield of Utah (Utah) complied with the
Medicare contracts pension segmentation requirements while updating Medicare segment assets
from January 1, 1986, to January 1, 1998. Utah did not correctly identify the initial allocation
of pension plan assets to the Medicare segment as of January 1, 1986, and did not comply
with the Medicare contract's pension segmentation requirements for updating Medicare segment
assets from January 1, 1986, to January 1, 1991.  Additionally, Utah did not update
the Medicare segment assets from January 1, 1991, to January 1, 1998.  We recommended
that Utah identify Medicare segment pension assets of $2,040,174 as of January 1, 1998.  Utah
agreed.